May 4, 2012

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services

              /Kay L. Daly/ for
FROM:         Gloria L. Jarmon
              Deputy Inspector General for Audit Services


SUBJECT:      Southern California Renal Disease Council, Inc., Claimed Unallowable and
              Unsupported Costs Under Medicare Contract Number HHSM-500-2006-018C
              (A-09-11-02044)


Attached, for your information, is an advance copy of our final report on costs claimed by
Southern California Renal Disease Council, Inc. (Council), to administer the end-stage renal
disease Network Organization Program as a Federal contractor. We will issue this report to the
Council within 5 business days. The Centers for Medicare & Medicaid Services, Office of
Acquisition and Grants Management, requested that we conduct this contract closeout audit.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-11-02044.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                        90 - 7 T H S TREET, S UITE 3-650
                                                                         S AN F RANCISCO , CA 94103
May 7, 2012

Report Number: A-09-11-02044

Ms. Harriet L. Edwards
Executive Director
Southern California Renal Disease Council, Inc.
6255 Sunset Boulevard, Suite 2211
Los Angeles, CA 90028

Dear Ms. Edwards:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Southern California Renal Disease Council, Inc., Claimed
Unallowable and Unsupported Costs Under Medicare Contract Number HHSM-500-2006-
018C. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jessica Kim, Audit Manager, at (323) 261-7218, extension 702, or through email at
Yun.Kim@oig.hhs.gov. Please refer to report number A-09-11-02044 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Harriet L. Edwards


Direct Reply to HHS Action Official:

Mr. Daniel F. Kane
Director
Office of Acquisition and Grants Management
Centers for Medicare & Medicaid Services
Mail Stop C2-21-15
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 SOUTHERN CALIFORNIA RENAL
    DISEASE COUNCIL, INC.,
  CLAIMED UNALLOWABLE AND
  UNSUPPORTED COSTS UNDER
 MEDICARE CONTRACT NUMBER
     HHSM-500-2006-018C




                       Daniel R. Levinson
                        Inspector General

                           May 2012
                         A-09-11-02044
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Social Security Amendments of 1972, P.L. No. 92-603, extended Medicare coverage to
individuals with end-stage renal disease (ESRD) who require dialysis or kidney transplantation.
The ESRD Amendments of 1978, P.L. No. 95-292, authorized the formation of ESRD network
areas and the establishment of the Network Organization Program (program) to ensure the
effective and efficient administration of program benefits.

The Centers for Medicare & Medicaid Services (CMS) contracts with 18 ESRD Network
Organizations (network) to administer the program. According to CMS’s Medicare ESRD
Network Organizations Manual, the networks are responsible for “conducting activities in the
areas of quality improvement, community information and resources, administration, and
information management.”

Southern California Renal Disease Council, Inc. (Council), a nonprofit organization, is one of the
18 networks. The Council administers the program for an area covering 13 California counties.
As a nonprofit organization that was awarded a Federal contract, the Council must follow the
cost principles in the Office of Management and Budget Circular A-122.

We reviewed $5,454,108 of the $6,680,140 that the Council claimed under Medicare contract
number HHSM-500-2006-018C, which is a cost-reimbursable contract for the period
July 1, 2006, through September 29, 2010. In accordance with our agreement with the
contracting officer, we did not review subcontract costs of $913,695. We also did not review
fixed fees of $312,337.

CMS requested that we conduct this contract closeout audit. The Council used provisional rates
based on estimated costs to calculate fringe benefits and indirect costs that it claimed for
reimbursement. CMS asked us to calculate the Council’s fringe benefit and indirect cost rates
using actual costs. CMS might use those rates when negotiating and settling with the Council
during the contract closing process.

OBJECTIVES

Our objectives were to (1) determine whether the costs that the Council claimed were allowable
under the terms of the contract and pursuant to applicable Federal regulations and (2) calculate
the fringe benefit and indirect cost rates based on actual costs.

SUMMARY OF FINDINGS

Of the $5,454,108 of costs we reviewed, $2,601,054 was allowable under the terms of the
contract and pursuant to applicable Federal regulations. The remaining $2,853,054 consisted of
$112,670 in other direct costs that we determined were unallowable and $2,740,384 that we set
aside for CMS resolution because the Council did not maintain supporting documentation for




                                                i
review. The Council claimed unallowable or unsupported costs because it did not have adequate
controls to account for costs claimed under Federal contracts.

We calculated fringe benefit and indirect cost rates based on actual costs.

RECOMMENDATIONS

We recommend that the Council:

   •   refund to the Federal Government $112,670 for unallowable costs,

   •   work with CMS to determine the allowability of $2,740,384 that we set aside and refund
       to the Federal Government any amount that is determined to be unallowable, and

   •   strengthen its controls to account for costs claimed under Federal contracts.

AUDITEE COMMENTS

In its written comments on our draft report, the Council concurred with our first and second
recommendations and provided information on actions that it had taken or planned to take to
address our third recommendation. The Council’s comments are included in their entirety as
Appendix B.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              End-Stage Renal Disease Network Organization Program ...........................1
              Southern California Renal Disease Council, Inc. ..........................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY ...................................................2
               Objectives ......................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................4

          SALARIES AND WAGES........................................................................................4

          FRINGE BENEFITS .................................................................................................5

          INDIRECT COSTS ...................................................................................................6

          CONSULTANTS .......................................................................................................7

          OTHER DIRECT COSTS .........................................................................................8

          LACK OF ADEQUATE CONTROLS ......................................................................9

          RECOMMENDATIONS ...........................................................................................9

          AUDITEE COMMENTS...........................................................................................9

OTHER MATTERS ............................................................................................................9

          REQUIRED ANNUAL SINGLE AUDIT .................................................................9

          PROCUREMENT POLICIES AND PROCEDURES .............................................10

APPENDIXES

          A: SCHEDULE OF COSTS CLAIMED AND RESULTS OF AUDIT
             FOR THE PERIOD JULY 1, 2006, THROUGH SEPTEMBER 29, 2010

          B: AUDITEE COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

End-Stage Renal Disease Network Organization Program

The Social Security Amendments of 1972, P.L. No. 92-603, extended Medicare coverage to
individuals with end-stage renal disease (ESRD) who require dialysis or kidney transplantation.
The ESRD Amendments of 1978, P.L. No. 95-292, authorized the formation of ESRD network
areas and the establishment of the Network Organization Program (program), consistent with
criteria that the Secretary of Health and Human Services determined would ensure the effective
and efficient administration of program benefits.

The Centers for Medicare & Medicaid Services (CMS) contracts with 18 ESRD Network
Organizations (network) to administer the program for each State, each territory, and the District
of Columbia. According to CMS’s Medicare ESRD Network Organizations Manual, the
networks are responsible for “conducting activities in the areas of quality improvement,
community information and resources, administration, and information management.” The
networks work with consumers, ESRD facilities, and other providers of ESRD services to refine
care delivery systems to ensure that ESRD patients get the right care at the right time.

Southern California Renal Disease Council, Inc.

Southern California Renal Disease Council, Inc. (Council), a nonprofit organization, is one of the
18 networks that serves as a Federal contractor to administer the program. The Council’s area
covers 13 California counties from the Mexico and Arizona/Nevada borders to the central
California coastal area and inland. There are 297 member dialysis facilities and 17 renal
transplant centers in the area that provide treatment to more than 30,000 dialysis patients and
12,000 transplant recipients.

Under Medicare contract number HHSM-500-2006-018C, which is a cost-reimbursable contract,
the Council claimed $6,680,140 for administering the program. Of this amount, $1,141,453 was
for fringe benefits and $706,601 was for indirect costs that the Council claimed using provisional
rates based on estimated costs. The purpose of this contract was “to meet the requirements of
[Federal directives] related to improving the quality of care provided to patients with ESRD
through to end of life.” The contract was for the period July 1, 2006, through September 29,
2010. 1 During this period, this contract was the Council’s primary source of revenue. 2 In this
report, we refer to contract number HHSM-500-2006-018C as “the contract.”




1
    As of September 30, 2010, CMS had awarded the Council a fixed-price contract.
2
  The Council had another cost-reimbursable contract with CMS to provide centralized support for the program for
the period September 30, 2002, through September 28, 2006. We issued a separate report for that contract on
April 23, 2012 (A-09-11-02005, Southern California Renal Disease Council, Inc., Claimed Unallowable and
Unsupported Costs Under Medicare Contract Number 500-02-NW18CH).


                                                         1
The contract required the Council to comply with the Office of Management and Budget (OMB)
Circular A-122, Cost Principles for Non-Profit Organizations, and applicable sections of the
Federal Acquisition Regulation (FAR). In addition, the contract stated that a contract closeout
audit would be performed to determine whether the Council complied with the contract, OMB
Circular A-122’s cost principles for nonprofit organizations receiving Federal awards, the FAR,
and other relevant guidelines.

CMS requested that we conduct this contract closeout audit. FAR § 52.216-7 requires CMS to
negotiate and settle with the Council the total claimed costs, including the final fringe benefits
and indirect costs. The Council used provisional rates based on estimated costs to calculate
fringe benefits and indirect costs. CMS asked us to calculate the Council’s fringe benefit and
indirect cost rates using actual costs. CMS might use those rates during the contract closing
process.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) determine whether the costs that the Council claimed were allowable
under the terms of the contract and pursuant to applicable Federal regulations and (2) calculate
the fringe benefit and indirect cost rates based on actual costs.

Scope

We reviewed $5,454,108 of the $6,680,140 that the Council claimed under Medicare contract
number HHSM-500-2006-018C for the period July 1, 2006, through September 29, 2010. In
accordance with our agreement with the contracting officer, we did not review subcontract costs
of $913,695. We also did not review fixed fees of $312,337.

We did not conduct a full-scope audit addressing the Council’s performance. Also, we did not
review the overall internal control structure of the Council. We limited our review of the
Council’s internal controls to those that were significant to the objectives of our audit.

We conducted our audit from May to October 2011 and performed fieldwork at the Council’s
office in Los Angeles, California.

Methodology

To accomplish our objectives, we:

   •    reviewed applicable Federal laws and regulations;

   •    reviewed the terms of the contract and modifications that CMS made;

   •    reviewed minutes of board of directors’ meetings;



                                                 2
    •   reviewed the Council’s policies and/or procedures on the allocation of costs, property
        management, payroll, and travel;

    •   interviewed Council officials to gain an understanding of the Council’s accounting
        procedures;

    •   reviewed the Council’s financial statements for the periods July 1, 2006, through
        June 30, 2007; July 1, 2007, through June 30, 2008; and July 1, 2008, through
        June 30, 2009; 3

    •   reconciled the expenses recorded in the Council’s general ledger with expenses claimed
        under the contract;

    •   reviewed consultant agreements for nine consultants paid over $1,000;

    •   reconciled the claimed costs for salaries and wages with the Council’s payroll distribution
        records;

    •   analyzed the general ledger to identify large, unusual, and/or recurring transactions and
        judgmentally selected transactions for claimed costs (direct and indirect costs and fringe
        benefits) to determine their allowability; 4

    •   reviewed costs claimed to determine whether fringe benefits and indirect costs were
        treated consistently in like circumstances; and

    •   calculated the fringe benefit and indirect cost rates for each contract year based on the
        actual costs recorded in the general ledger and the paid-time-off records.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




3
 The financial statements for 2007–2008 were audited. The financial statements for 2006–2007 and 2008–2009
were unaudited.
4
 When errors were identified for a particular element of cost from the judgmentally selected transactions, we
expanded our review to determine the extent of the errors. We determined that the number, dollar amount, and type
of transactions selected were sufficient based on the adequacy of supporting documentation.


                                                        3
                             FINDINGS AND RECOMMENDATIONS

Of the $5,454,108 of costs we reviewed, $2,601,054 was allowable under the terms of the
contract and pursuant to applicable Federal regulations. The remaining $2,853,054 consisted of
$112,670 in other direct costs that we determined were unallowable and $2,740,384 that we set
aside for CMS resolution because the Council did not maintain supporting documentation for
review. The Council claimed unallowable or unsupported costs because it did not have adequate
controls to account for costs claimed under Federal contracts. See Appendix A for a schedule of
the costs claimed by the Council and the results of our audit, i.e., allowable, unallowable, and
set-aside amounts.

We calculated fringe benefit and indirect cost rates based on actual costs. See Tables 1 and 2 for
the provisional fringe benefit and indirect cost rates that the Council used and our revised rates.

SALARIES AND WAGES

OMB Circular A-122, Attachment B, subparagraph 8.m, states:

        (1) Charges to awards for salaries and wages, whether treated as direct costs or
        indirect costs, will be based on documented payrolls approved by a responsible
        official(s) of the organization. The distribution of salaries and wages to awards
        must be supported by personnel activity reports ….

        (2) Reports reflecting the distribution of activity of each employee must be
        maintained for all staff members (professionals and nonprofessionals) whose
        compensation is charged, in whole or in part, directly to awards. In addition, in
        order to support the allocation of indirect costs, such reports must also be
        maintained for other employees whose work involves two or more functions or
        activities if a distribution of their compensation between such functions or
        activities is needed in the determination of the organization’s indirect cost
        rate(s) ….

Of the $2,610,436 claimed for salaries and wages, $1,016,693 was allowable. 5 We set aside the
remaining $1,593,743 for CMS resolution because the Council did not maintain for review
supporting documentation, such as personnel activity reports, that reflected the distribution of
activity for each employee. Based on our review of the Council’s payroll records, we were able
to determine that the Council incurred these costs for salaries and wages. However, without
personnel activity reports, we could not determine the amount of salaries and wages allocable to
the contract.




5
 The $1,016,693 of allowable salaries and wages was for employees for which the Council maintained supporting
documentation, such as payroll distribution records and personnel activity reports.


                                                       4
FRINGE BENEFITS

OMB Circular A-122, Attachment B, subparagraph 8.g.(2), states that fringe benefits can be
treated as direct or indirect costs. Further, Attachment A, subparagraph C.1., states: “Indirect
costs are those that have been incurred for common or joint objectives and cannot be readily
identified with a particular final cost objective.”

FAR § 52.216-7(b)(1) states:

         For the purpose of reimbursing allowable costs … the term “costs” includes
         only— (i) Those recorded costs that, at the time of the request for reimbursement,
         the Contractor has paid by cash, check, or other form of actual payment for items
         or services purchased directly for the contract; (ii) When the Contractor is not
         delinquent in paying costs of contract performance in the ordinary course of
         business, costs incurred, but not necessarily paid for— … (F) Properly allocable
         and allowable indirect costs ….

Of the $1,141,453 claimed for fringe benefits, 6 $444,574 was allowable. We calculated the
$444,574 of fringe benefit costs by applying the revised fringe benefit rates based on actual costs
(discussed below) to the allowable salaries and wages discussed in the previous section. We set
aside for CMS resolution the remaining $696,879 because it related to the $1,593,743 in
unsupported salaries and wages.

Table 1 illustrates the fringe benefit rates that the Council used to claim fringe benefits using
provisional rates based on estimated costs, the fringe benefits claimed by the Council, our
revised rates based on actual costs, and the fringe benefits calculated by applying the revised
rates to the salaries and wages claimed by the Council. The fringe benefit costs claimed by the
Council using provisional rates were less than costs calculated using our revised rates, except for
the contract years ended June 30, 2007, and June 30, 2010.




6
  The Council treated fringe benefits as indirect costs, except for fringe benefits claimed as direct costs (discussed in
the section “Other Direct Costs”).



                                                            5
                               Table 1: Fringe Benefit Rates and Costs

                                              Costs Claimed                             Costs Calculated
    Contract         Council Rate(s) 7                              Revised Rate
                                                Using the                                  Using the
     Year             (Percentage)                                  (Percentage)
                                              Council Rate                               Revised Rate

    7/1/2006–
                            47.0                 $269,007                43.17               $247,075
    6/30/2007

    7/1/2007–
                      47.0 and 50.35               303,686               44.26                307,500
    6/30/2008

    7/1/2008–
                      47.39 and 47.49              284,714               49.53                317,696
    6/30/2009

    7/1/2009–
                            40.47                  227,245               40.19                225,944
    6/30/2010

    7/1/2010–
                            40.47                   56,801               44.91                  63,039
    9/29/2010


INDIRECT COSTS

OMB Circular A-122, Attachment A, subparagraph E.1.d., states: “Final rate means an indirect
cost rate applicable to a specified past period which is based on the actual costs of the period. A
final rate is not subject to adjustment.”

FAR § 52.216-7(d)(2) states: “(i) The Contractor shall submit an adequate final indirect cost rate
proposal to the Contracting Officer … and auditor …. The Contractor shall support its proposal
with adequate supporting data. (ii) The proposed rates shall be based on the Contractor’s actual
cost experience for that period.” Further, FAR § 52.216-7(g) states: “At any time or times
before final payment, the Contracting Officer may have the Contractor’s invoices or vouchers
and statements of cost audited.”

Of the $706,601 claimed for indirect costs, $280,404 was allowable. We calculated the
$280,404 of indirect costs by applying the revised indirect cost rates based on actual costs
(discussed below) to the allowable salaries and wages and fringe benefits discussed in previous
sections. We set aside the remaining $426,197 for CMS resolution because it related to the
$1,593,743 in unsupported salaries and wages and $696,879 in fringe benefits applicable to the
unsupported salaries and wages.



7
 The Council used two different rates in 2007–2008 and 2008–2009. According to a Council official, the
provisional rates were revised during each contract year based on the annual budget.


                                                       6
Table 2 illustrates the indirect cost rates that the Council used to claim indirect costs using
provisional rates 8 based on estimated costs, the indirect costs claimed by the Council, our revised
rates based on actual costs, and the indirect costs calculated by applying the revised rates to the
salaries and wages claimed by the Council and the applicable fringe benefits. The indirect costs
claimed by the Council using provisional rates were less than costs calculated using our revised
rates, except for the contract year ended June 30, 2010.

                             Table 2: Indirect Cost Rates and Indirect Costs


                                                 Costs Claimed                                     Costs Calculated
    Contract          Council Rate(s) 9                                      Revised Rate
                                                Using the Council                                  Using the Revised
     Year              (Percentage)                                          (Percentage)
                                                      Rate                                               Rate


    7/1/2006–
                       38.63 and 17.29                $178,170                    24.92                   $204,199
    6/30/2007


    7/1/2007–
                       17.29 and 18.36                 166,076                    21.77                    218,160
    6/30/2008


    7/1/2008–
                       19.31 and 19.23                 170,200                    19.55                    187,506
    6/30/2009

    7/1/2009–
                             19.49                     153,729                    18.61                    146,516
    6/30/2010


    7/1/2010–
                             19.49                       38,426                   20.68                      42,057
    9/29/2010


CONSULTANTS

OMB Circular A-122, Attachment A, subparagraph A.2., states that to be allowable under an
award, costs must be reasonable for the performance of the award and adequately documented.
Further, Attachment B, subparagraph 37(b), lists factors that are relevant in determining the
allowability of consultant costs, including but not limited to the nature and scope of the service
8
  The Council claimed the indirect costs by using provisional rates calculated as a ratio of the indirect cost pool (i.e.,
numerator) and the base (i.e., denominator). The indirect cost pool included estimated total facilities and
administration costs, and the base included estimated total salaries and wages plus fringe benefits. We revised the
indirect cost rates using actual costs.
9
  The Council used two different rates in 2006–2007, 2007–2008, and 2008–2009. According to a Council official,
the provisional rates were revised during each contract year based on the annual budget.


                                                            7
provided in relation to the service required, the necessity of contracting for the service, and the
adequacy of the contractual agreement for the service (e.g., description of the service, estimate of
time required, rate of compensation, and termination provisions).

Of the $91,234 claimed for consultant costs, $67,669 was allowable. We set aside the remaining
$23,565 for CMS resolution because the Council did not maintain for review consultant
agreements that reflected the nature and scope of the services provided, the necessity of
contracting for the services, or the adequacy of the contractual agreements. According to a
Council official, the Council’s previous executive director hired consultants without written
agreements. Based on our review of the Council’s invoices for consultants, we were able to
determine that the Council incurred these consultant costs. However, without consultant
agreements, we could not determine the reasonableness of the consultant costs.

OTHER DIRECT COSTS

OMB Circular A-122, Attachment A, subparagraph A.2., states that to be allowable under an
award, costs must be reasonable for the performance of the award and adequately documented.
Subparagraph B.1. states: “Direct costs are those that can be identified specifically with a
particular final cost objective ….” Subparagraph C.1. states: “Indirect costs are those that have
been incurred for common or joint objectives and cannot be readily identified with a particular
final cost objective.”

OMB Circular A-122, Attachment A, subparagraph D.3.b(4), states that in developing the
indirect cost pool for general administration and general expenses, “special care should be
exercised to ensure that costs incurred for the same purpose in like circumstances are treated
consistently as either direct or indirect costs.”

Of the $781,017 claimed for other direct costs, 10 $668,347 was allowable. The remaining
$112,670 was unallowable and consisted of $10,550 claimed incorrectly because of clerical
errors and $102,120 that the Council claimed as direct costs but should have included in the
fringe benefit and indirect cost pools:

     •   The $10,550 in unallowable costs was for direct costs incorrectly claimed on two public
         vouchers because of clerical errors. 11 The supporting transactions were less than the total
         costs claimed for other direct costs on the two public vouchers. The Council could not
         provide an explanation of why the total amount of the transactions was less than the total
         costs claimed.

     •   The $102,120 in unallowable costs was for certain types of fringe benefits and indirect
         costs that the Council claimed as direct costs but should have included in the fringe
         benefit and indirect cost pools, respectively. The $102,120 consisted of $45,557 in fringe

10
  Other direct costs included furniture and equipment, supplies, legal fees, meeting and conference expenses,
postage fees, printing fees, recruiting fees, and telephone expenses.
11
  To claim costs for reimbursement, the Council submitted to CMS the Standard Form 1034, Public Voucher for
Purchases and Services Other Than Personal.


                                                         8
       benefits, such as health insurance and pension expenses, and $56,563 in indirect costs,
       such as office supply expenses and dues and subscriptions. The Council did not ensure
       that these types of costs incurred for the same purpose in like circumstances were treated
       consistently as either fringe benefits or indirect costs. To be consistent with the
       requirements of OMB Circular A-122, we included the $102,120 when calculating the
       revised fringe benefit and indirect cost rates.

LACK OF ADEQUATE CONTROLS

The Council did not have adequate controls to ensure that the costs claimed under the contract
were allowable under the terms of the contract and pursuant to applicable Federal regulations.
The Council did not maintain supporting documentation as required by Federal regulations, and
the person who was responsible for the Council’s accounting was not familiar with the
requirement to treat costs consistently in like circumstances. Further, the Council did not have
policies and procedures for documenting contractual agreements for consultant services. A
Council official stated that many of the consultants had provided services to the Council for
many years and that the Council’s former executive director handled the procurement of
consultant services during our audit period.

RECOMMENDATIONS

We recommend that the Council:

   •   refund to the Federal Government $112,670 for unallowable costs,

   •   work with CMS to determine the allowability of $2,740,384 that we set aside and refund
       to the Federal Government any amount that is determined to be unallowable, and

   •   strengthen its controls to account for costs claimed under Federal contracts.

AUDITEE COMMENTS

In its written comments on our draft report, the Council concurred with our first and second
recommendations and provided information on actions that it had taken or planned to take to
address our third recommendation. The Council’s comments are included in their entirety as
Appendix B.

                                     OTHER MATTERS

REQUIRED ANNUAL SINGLE AUDIT

OMB Circular A-133 (Audits of States, Local Governments, and Non-Profit Organizations),
subpart B, §__200(a), states: “Non-Federal entities that expend $300,000 ($500,000 for fiscal
years ending after December 31, 2003) or more in a year in Federal awards shall have a single or
program-specific audit conducted for that year ….”




                                                9
OMB Circular A-133, subpart E, §__505, states that the auditor’s report must identify that the
audit was conducted in accordance with this part and include a report on internal controls related
to financial statements and major programs. This report must describe the scope of testing of
internal controls and the results of the tests and, where applicable, refer to the separate schedule
of findings and questioned costs described in paragraph (d) of this section.

The Council did not have single audits conducted for each year of our audit period, even though
it expended more than $500,000 in Federal awards in each of those years. The Council had its
financial statements for the year ended June 30, 2008, audited by an independent auditor, but the
audit report did not identify that the audit was conducted in accordance with OMB Circular
A-133. Further, the audit report did not include a report on the internal controls related to
financial statements and major programs as required by Federal regulations.

PROCUREMENT POLICIES AND PROCEDURES

OMB Circular A-110 (Uniform Administrative Requirements for Grants and Agreements With
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations), section __.43,
requires that all procurement transactions be conducted in a manner to provide open and free
competition. Section __.44(a) requires that all recipients establish written procurement
procedures. Section __.45 states: “Some form of cost or price analysis shall be made and
documented in the procurement files in connection with every procurement action.”

The Council did not establish written procurement procedures and did not have documentation to
support that the procurement of consultants and equipment provided open and free competition
or that a cost or price analysis was performed in procuring consultants and equipment.




                                                 10
APPENDIXES
APPENDIX A: SCHEDULE OF COSTS CLAIMED AND RESULTS OF AUDIT
   FOR THE PERIOD JULY 1, 2006, THROUGH SEPTEMBER 29, 2010



 Element of Cost     Claimed      Allowable      Unallowable   Set Aside

Salaries and Wages   $2,610,436     $1,016,693           $0     $1,593,743

Fringe Benefits       1,141,453        444,574            0        696,879

Indirect Costs         706,601         280,404            0        426,197

Consultants             91,234          67,669            0         23,565

Other Direct Costs     781,017         668,347       112,670               0

Travel                 123,367         123,367            0                0

   Total Costs       $5,454,108     $2,601,054      $112,670    $2,740,384
                                                                                                                                Page 1 of3


                                   APPENDIX B: AUDITEE COMMENTS



                          Southern California
                          Renal Disease Council
                                        'NCORPOl>AfEO

                          ESRD NETWORK 18                                                                                       •


          Apri12, 2012



          Lori A. Ahlstrand
          Regional Inspector General for Audit Services
          Office of Audit Services, Region IX
          90- 7th Street, Suite 3-650
          San Francisco, CA. 94103

          Re: Report Number: A-09-11-02044

          Dear Ms. Ahlstrand:

          Please find this letter in response to the u.s. Department of Health and Human Services, Office of Inspector
          General (OIG), and draft report entitled Southern California Renal Disease, Inc. Claimed and Unallowable and
          Unsupported Costs under Medicare Contract Number HHSM-500-2006-0 18C dated March 5, 2012.

          According to the Summary of Finding, your audit team reviewed $5,454 ,108 of costs of which $2,601,054 were
          allO\vable , allocable and reasonable under the terms of the contract; The remaining $2,853,054 consisted of
          $112,670 in other direct costs that were determined to be unallowable; and $2,740,384 that your audit team set
          aside for CMS resolution.

          The recommendations issued by the audit team are as fo11O\\'s:
              • 	 Refund to the Federal Government $112,607*for unallowable other direct costs,
              • 	 Work IN.i.th CMS to determine the allO\vability of $2,740,384 ofthe set aside funds and refund the amount
                  determined by CM S to be unallowable,
              • 	 Strengthen its controls to account for costs claimed under Federal contracts.

          Southern California Renal Disease Council, Inc. is presenting the following statements of concurrence for the
          above recommendations made by the OIG.
             • 	 SCRDC , Inc. concurs "With the recommendation of refunding the $112,607 to CMS for unallowable other
                  direct costs.
             • 	 SCRDC , Inc. concurs IN.i.th the recommendation of working IN.i.th CMS to determine the allO\vability of the
                  set aside amount of$2,740,384.
             • 	 SCRDC , Inc. has begun implementing policies and procedures that strengthen and improve the control to
                  accounts for costs claimed under Federal contracts.


                                                                 lVfission Statement
                                  To p rCNiJe leadership and = istwre to renal dialysis and tm nsplant ftcilities in a manner
                                   that supports ContinualS imprCNement in patient care, w1cornes, safety and satisfoctim .

                                      6255 Sllllset Boulevard· Suite 2211 • Los Angeles· California· 90028
                                 (323) 962-2020 • (800) 637 -4767 • (323) 962-2891/Fax • www.esrmetwO!k18.org



* Office of Inspector General Note: According to the auditee, the $112,607 was intended to be $112,670. The
auditee concurred with the recommended reflllld of $112,670.
                                                                                                                   Page2of3



                                                 ESRD NE1WORK 18


Southern California Renal Disease Council appreciates the opportunity to respond to the recommendations
offered by the OIG; and would also like to include the following information:

   1. 	 The Contract Awards which were audited during this audit period were Cost Reimbursement Contracts
        rather than being a Fixed Contract.
   2. 	 The previous Executive Director during the audited contract years was replaced on December 28, 2008.
   3. 	 It has been brought to my attention that correspondence was sent to the Contracting Officer during the
        contracts: a) rates for indirect costs; b) and asking when the audit was to be scheduled. Please note that
        CMS audits for the Council had not been completed since the Contract Year 2001.
   4. 	 Current Administration has implemented policies and procedures that will bring the Council into
        compliance with the Office of Management and Budget (OMB) Circular In-A, as well as the applicable
        sections of the Federal Acquisition Regulations (FAR). These implemented policies and procedures
        include but are not limited to:
        a. 	 Salaries and Wages
               i. 	 Employee activity reports (including timesheets) have been implemented to provide
                    documentation for charging their compensation to the award.
              ii. 	 Payroll records are now maintained according to State and Federal laws.
             iii. 	 Employees dealing with wages, salaries and contract awards have been given the pertinent
                    information from OMB Circular A-In and FAR.
             iv. 	 Employee activity reports, timesheets and payroll records will be kept four years after CMS has
                    performed the final audit of contract.
        b. 	 Fringe Benefits CostlRate
               i. 	 In order to calculate the fringe rate, policies and procedures have been implemented for cost
                    contracts to utilized actual fringe costs in accordance with OMB Circular A-In and FAR, and
                    once approved by CMS, used throughout the contract period.
              ii. 	 Documents will be maintained four years after CMS has audited contract.
        c. 	 Indirect Costs
               i. 	 Policies and procedures are in place that will prevent the misallocation of indirect costs to direct
               costs and vice versa.
            ii. 	 The Council will submit an adequate final indirect cost rate proposal to the Contracting Officer
                  and this final indirect rate will be supported by adequate supporting data. This indirect rate will
                  be based on the Council's actual cost experience.
           iii. 	 Documents will be maintained four years after CMS has audited contract.
       d. 	 Consultants
             i. 	 Implemented policy directed at complying with the procurement of consultants according to the
                  OMB Circular A-122 Attachment A, subparagraph A.2 and Attachment B, subparagraph 37(b);
                  including creating a form for documenting the procurement of consultants and establishing a
                  consultant agreement/contract which delineates the description of services, estimate of time
               required, rate of compensation and tennination provisions.
           ii. 	 Any and all consultant selection will be conducted in such a manner as to provide open and free
                 competition.

       e. 	 Other Direct Costs
            i. 	 Policies and procedures are in place that will prevent the misallocation of direct costs to Indirect
               costs and vice versa.
           ii. 	 The Council will identifY and adequately record direct cost to appropriate accounts, along with
                 maintain adequate supporting data.
                                                        Page 2
                                                                                                             Page30f3



                                                ESRD NE1WORK 18


             iii. Documents will be maintained four years after CMS has audited contract.

        f. 	 Required Annual Single Audit
              i. 	 This required Single Audit was implemented by the new Executive Director in 2010 as part ofthe
                   increased fiscal awareness and effort to comply with contract requirements (OMB Circular A­
                   133).

        g. 	 Lack of Adequate Internal Controls
             i. 	 Policies and procedures have been implemented, reviewed, or replaced to insurance strict
                  adherence to the Circular A-In and FAR.

        h. 	 Procurement Policies and Procedures
              i. 	 Procurement Policies and procedures have been implemented to require that all procurement
                   transactions be conducted in a manner to provide open and free competition, in adherence to the
                   Circular A-ll o.
             ii. Supporting documents will be maintained four years after CMS has audited contract.




Thank you for allowing us to review and respond to these audit finding.

Sincerely,

!Harri et L. Edwardsl

Harriet L. Edwards, MSWIMSG
Executive Director




                                                      Page 3
